Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




KANSAS IMPROPERLY RECEIVED
 MEDICAID REIMBURSEMENT
    FOR SCHOOL-BASED
     HEALTH SERVICES




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                       August 2014
                                                      A-07-13-04207
                      Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Kansas received $10.7 million in Federal reimbursement for the Medicaid school-
 based health services program that was not reasonable, allowable, and adequately
 supported in accordance with Federal and State requirements.


WHY WE DID THIS REVIEW

The Social Security Act (the Act) permits Medicaid payment for medical services provided to
children under the Individuals with Disabilities Education Act of 2004. States are permitted to
use their Medicaid programs to help pay for certain services, such as physical and speech therapy
services, that are delivered to children in schools. To ascertain (for purposes of claiming Federal
reimbursement) the portion of time and activities of a school-based health program that is related
to the provision of Medicaid services, States may develop an allocation methodology that is
approved by the Centers for Medicare & Medicaid Services (CMS). Random moment sampling,
which makes use of random moment timestudies (RMTS), is an approved allocation
methodology and must reflect all of the time used and activities performed (whether allocable or
allowable under Medicaid) by employees participating in a school-based health program.

State Medicaid agencies are increasingly using random moment sampling to allocate school-
based health costs to Medicaid, eliminating the need for health care providers to submit claims
for services provided in school-based settings. During previous Office of Inspector General
reviews of school district administrative claiming and health services programs, we determined
that the use of an RMTS allocation methodology may allow costs that are not reasonable,
adequately supported, or otherwise allowable. We have therefore undertaken a series of reviews
of the use of RMTS for the claiming of direct medical service costs related to Medicaid school-
based health services (SBHS), including this review of the Kansas Department of Health and
Environment, Division of Health Care Finance (State agency).

The objective of this review was to determine whether the direct medical service costs that the
State agency claimed for SBHS were reasonable, adequately supported, and otherwise allowable
in accordance with applicable Federal and State requirements.

BACKGROUND

Medicaid Program and Health-Related Services to Children

Congress amended section 1903(c) of the Act in 1988 to allow Medicaid coverage of health-
related services provided to children. The school-based health program permits children to
receive health-related services that are specified in each child’s individualized education plan
(IEP), generally without having to leave school.

SBHS included in a child’s IEP may be covered under Medicaid as long as (1) the services are
listed in section 1905(a) of the Act and are medically necessary; (2) all other relevant Federal
and State regulations are followed; and (3) the services are included in the State Medicaid plan or



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   i
are available under the Early and Periodic Screening, Diagnosis, and Treatment Medicaid
benefit. Covered direct medical services may include, but are not limited to, physical therapy,
occupational therapy, speech pathology/therapy, psychological counseling, nursing, and
specialized transportation services. Direct medical service costs are primarily composed of
(1) salary and benefit costs for employees or contractors of the school districts who provide
direct medical services to students and (2) approved direct medical service material and supply
costs (e.g., gauze, stethoscope, latex gloves).

Kansas School-Based Health Services Program

The State agency administers the Medicaid program in Kansas, including the SBHS program, in
accordance with a CMS-approved State plan. The Kansas Medicaid State Plan Amendment
#09-07, effective July 1, 2009, defines SBHS as services to children listed in each child’s IEP.
These services include specialized transportation; nursing services; physical therapy; counseling
services; social work services; psychological services; and speech, language, and hearing
services.

In February 2006, the State agency contracted with Public Consulting Group, Inc. (the
Contractor), to manage portions of the SBHS program.

The State agency’s CMS-approved Medicaid School District Administrative Claiming & Fee-
For-Service Cost Settlement Implementation & Time Study Guide (Implementation Guide)
contains the policies and procedures that Kansas school districts follow to receive Medicaid
reimbursement. The Implementation Guide also describes procedures for how the RMTS should
be performed and applied.

On an ongoing basis, participating Kansas school districts submitted fee-based claims to the
State agency for SBHS provided to students. The State agency paid the participating school
districts interim payments for these services. The State agency claimed Federal reimbursement
for these interim payments on a quarterly basis.

The purpose of the RMTS is to identify the portion of the direct service time allowable and
reimbursable under Medicaid so that the State agency can thereby conduct a cost settlement on
an annual basis. After each participating school district reported its annual costs associated with
the provision of SBHS to the State agency, the Contractor (in coordination with the State agency)
applied the results of the RMTS to determine the Medicaid-allowable direct medical service
costs for each district. On an annual basis, the State agency then reconciled the total interim
payments for the State fiscal year for the participating school district to the Medicaid direct
medical service costs determined through the use of RMTS. The reconciliation process is
referred to as cost settlement.

When the State agency performs an annual cost settlement, costs are limited to the Medicaid
direct medical service costs determined through RMTS. If the interim payments were greater
than the Medicaid direct medical service costs, the school district paid the State agency the
difference. However, if the interim payments were less than the Medicaid direct medical service




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   ii
costs, the State agency paid the school district the difference and received reimbursement for the
Federal share of that difference.

The State agency received $24,792,498 ($17,270,734 Federal share) for interim payments and an
additional $12,749,319 ($6,918,730 Federal share) as a result of cost settlements. Thus, the State
agency received a total of $37,541,817 ($24,189,464 Federal share) for expenditures related to
Medicaid direct medical service costs associated with SBHS provided by 288 participating
school districts for the period July 1, 2009, through June 30, 2010. Because Federal regulations
allow State agencies up to 2 years to claim Medicaid expenditures, and to ensure completeness of
the interim payments for claims with dates of service in our audit period, we reconciled the State
agency’s claimed costs for the quarter ended September 2009 through the quarter ended
September 2012 (13 quarters in all).

WHAT WE FOUND

Not all of the Medicaid direct medical service costs that the State agency claimed for SBHS were
reasonable, adequately supported, or otherwise allowable in accordance with Federal and State
requirements. As a result, the State agency received unallowable Federal reimbursement totaling
$10,748,706 for services provided during the period July 1, 2009, through June 30, 2010.
Specifically:

    •   The State agency accounted for only $17,067,870 ($11,891,835 Federal share) of the
        $24,792,498 ($17,270,734 Federal share) in interim payments during final cost
        settlement. Because the State agency excluded $7,724,627 ($5,378,899 Federal share) in
        interim payments at cost settlement, the Medicaid direct medical service costs were
        overstated and therefore not reasonable. As a result of this error, the State agency
        received $5,378,899 in unallowable Federal reimbursement.

    •   The State agency claimed unallowable costs based on RMTS errors. Specifically, the
        Contractor selected invalid participants, selected random moments on invalid dates, and
        coded some activities inaccurately. As a result of these errors, the State agency received
        $4,715,310 in unallowable Federal reimbursement.

    •   The State agency claimed Medicaid direct medical service costs that were not supported
        by its internal cost reporting system. As a result, the State agency received $643,094 in
        unallowable Federal reimbursement.

    •   The State agency claimed unallowable costs because the Kansas City, Kansas, public
        school district overstated employee benefit and supply costs by $94,835. As a result, the
        State agency received $11,403 in unallowable Federal reimbursement.

These errors occurred because the State agency did not have adequate policies and procedures to
monitor the SBHS program and to ensure that it claimed all costs in accordance with applicable
Federal and State requirements. Although the State agency performed either a desk review or an
onsite visit of each school district at least once every 3 years, and although the State agency
reviewed at least 5 percent of the RMTS response codes and communicated any necessary


Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   iii
changes with the Contractor, these procedures were not adequate to ensure that the State agency
claimed costs correctly. As a result, the State agency received a total of $10,748,706 in
unallowable Federal reimbursement.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $10,748,706 to the Federal Government for unallowable SBHS costs and

    •   strengthen policies and procedures to monitor the SBHS program and ensure that
        (1) SBHS costs are accurate and supported and (2) it claims all SBHS costs in accordance
        with applicable Federal and State requirements.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency did not directly address our
recommendations. The State agency agreed with our first finding (regarding the interim
payments not used at cost settlement). The State agency neither agreed nor disagreed with our
third and fourth findings (regarding the unsupported expenditures claimed and the issues
identified in the Kansas City, Kansas, public school district) but described corrective actions that
it had implemented or planned to implement.

The State agency disagreed with our second finding, which involved $4,715,310 (Federal share)
in costs that we questioned on the basis of RMTS errors. State agency officials said that our
methodology for recoding the random moments in question and our methodology for calculating
the unallowable Federal reimbursement were not statistically valid. The officials added that they
had submitted an alternative methodology to CMS for approval that included individuals
providing attendant care services (whom our finding describes as invalid participants) in the pool
of direct medical service costs qualifying for Federal reimbursement. However, the officials did
not implement the methodology because CMS never approved it. The State agency also
provided information explaining the causes of RMTS errors involving invalid dates and
inaccurate coding of some activities.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. Although State agency officials said that they requested CMS’s
approval of the alternative methodology, CMS did not respond to this request, and the State
agency did not implement the methodology, as it acknowledged. The methodology through
which we evaluated the coding of the RMTS survey responses and recalculated the claimed costs
conforms to our policy and procedures and to methodologies that we have used in previous
reviews. In executing that methodology, we based our findings on applicable Federal and State
requirements, including the provisions of the State agency’s CMS-approved State plan, which
states that attendant care services are not allowable for Federal reimbursement.




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   iv
                                                    TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          Medicaid Program and Health-Related Services to Children .......................................1
          Kansas School-Based Health Services Program ...........................................................2

      How We Conducted This Review ..........................................................................................4

FINDINGS .....................................................................................................................................5

      Interim Payments Not Used at Cost Settlement .....................................................................6

       Errors Identified With Random Moment Timestudies ..........................................................7
            Selection of Invalid Participants for Random Moment Timestudies ............................7
            Selection of Invalid Dates for Random Moment Timestudies ......................................7
            Inaccurate Coding of Activities for Random Moment Timestudies .............................7
            Effect of Errors With Random Moment Timestudies ...................................................8

      Unsupported Expenditures Claimed .......................................................................................8

      Issues Identified at Kansas City, Kansas, Public School District ..........................................8

      School-Based Health Services Program Not Adequately Monitored ....................................9

RECOMMENDATIONS ...............................................................................................................9

STATE AGENCY COMMENTS ..................................................................................................9

OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................10

OTHER MATTERS.....................................................................................................................11

      Statistical Validity of Random Moment Timestudies ..........................................................11

      Timely Submission of Responses to
        Random Moment Timestudy Surveys ...............................................................................11

      Unsupported Responses to Random Moment Timestudy Surveys ......................................11




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)                                                  v
APPENDIXES

      A: Related Office of Inspector General Reports ................................................................12

      B: Audit Scope and Methodology......................................................................................13

      C: Sample Design and Methodology .................................................................................16

      D: Sample Results and Estimates ......................................................................................18

      E: Summary of Findings ....................................................................................................19

      F: Federal and State Requirements and Guidance
         Related to School-Based Health Services ......................................................................20

     G: State Agency Comments ...............................................................................................22




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)                                vi
                                          INTRODUCTION

WHY WE DID THIS REVIEW

The Social Security Act (the Act) permits Medicaid payment for medical services provided to
children under the Individuals with Disabilities Education Act of 2004. States are permitted to
use their Medicaid programs to help pay for certain services, such as physical and speech therapy
services, that are delivered to children in schools. To ascertain (for purposes of claiming Federal
reimbursement) the portion of time and activities of a school-based health program that is related
to the provision of Medicaid services, States may develop an allocation methodology that is
approved by the Centers for Medicare & Medicaid Services (CMS). Random moment sampling,
which makes use of random moment timestudies (RMTS), is an approved allocation
methodology and must reflect all of the time used and activities performed (whether allocable or
allowable under Medicaid) by employees participating in a school-based health program.

State Medicaid agencies are increasingly using random moment sampling to allocate school-
based health costs to Medicaid, eliminating the need for health care providers to submit claims
for services provided in school-based settings. During previous Office of Inspector General
reviews of school district administrative claiming and health services programs (Appendix A),
we determined that the use of an RMTS allocation methodology may allow costs that are not
reasonable, adequately supported, or otherwise allowable. We have therefore undertaken a series
of reviews of the use of RMTS for the claiming of direct medical service costs related to
Medicaid school-based health services (SBHS), including this review of the Kansas Department
of Health and Environment, Division of Health Care Finance (State agency).

OBJECTIVE

Our objective was to determine whether the direct medical service costs that the State agency
claimed for SBHS were reasonable, adequately supported, and otherwise allowable in
accordance with applicable Federal and State requirements.

BACKGROUND

Medicaid Program and Health-Related Services to Children

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

Congress amended section 1903(c) of the Act in 1988 to allow Medicaid coverage of health-
related services provided to children. The school-based health program permits children to
receive health-related services that are specified in each child’s individualized education plan
(IEP), generally without having to leave school.



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   1
SBHS included in a child’s IEP may be covered under Medicaid as long as (1) the services are
listed in section 1905(a) of the Act and are medically necessary; (2) all other relevant Federal
and State regulations are followed; and (3) the services are included in the State Medicaid plan or
are available under the Early and Periodic Screening, Diagnosis, and Treatment Medicaid
benefit. Covered direct medical services may include, but are not limited to, physical therapy,
occupational therapy, speech pathology/therapy, psychological counseling, nursing, and
specialized transportation services. 1 Direct medical service costs are primarily composed of
(1) salary and benefit costs for employees or contractors of the school districts who provide
direct medical services to students and (2) approved direct medical service material and supply
costs (e.g., gauze, stethoscope, latex gloves).

States use the standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report), to report actual Medicaid expenditures for each
quarter. CMS uses the CMS-64 reports to reimburse States for the Federal share of Medicaid
expenditures. The amounts that States report on the CMS-64 report and its attachments must be
actual expenditures with supporting documentation.

Kansas School-Based Health Services Program

The State agency administers the Medicaid program in Kansas, including the SBHS program, in
accordance with a CMS-approved State plan. The Kansas Medicaid State Plan Amendment
#09-07, effective July 1, 2009, defines SBHS as services to children listed in each child’s IEP.
These services include specialized transportation; nursing services; physical therapy; counseling
services; social work services; psychological services; and speech, language, and hearing
services.

In February 2006, the State agency contracted with Public Consulting Group, Inc. (the
Contractor), to manage portions of the SBHS program. The Contractor worked with the State
agency on the design and implementation of a cost settlement process under which costs at both
the school district and State levels could be reported and claimed for reimbursement. The
current cost settlement process became effective in July 2009.

The State agency’s CMS-approved Medicaid School District Administrative Claiming & Fee-
For-Service Cost Settlement Implementation & Time Study Guide (Implementation Guide)
contains the policies and procedures that Kansas school districts follow to receive Medicaid
reimbursement. The Implementation Guide also describes procedures for how the RMTS should
be performed and applied.




1
  The information on Medicaid coverage in this paragraph is drawn from CMS’s Medicaid and School Health: A
Technical Assistance Guide, issued in August 1997, which contains (on pages 15 and 19 through 23) specific
technical information on the Medicaid requirements that govern State agencies seeking Federal reimbursement for
coverable health services provided in a school-based setting.



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)                2
Interim Payments

On an ongoing basis, participating school districts submitted fee-based claims to the State agency
for SBHS provided to students. The State agency paid the participating school districts interim
payments for these services. The State agency claimed Federal reimbursement for these interim
payments on a quarterly basis.

Random Moment Timestudy Data Collection and Reporting

For each quarter during the school year, each school district gave the Contractor a list of all
school district employees in the SBHS program (participants). The Contractor consolidated
these personnel lists into a statewide pool and statistically selected participants from that pool.
The Contractor then calculated the available moments per quarter using each school district’s
calendar of working days and statistically selected 3,000 specific dates and times (random
moments) per quarter. Next, the Contractor matched a statistically selected random moment to a
statistically selected participant. Finally, the Contractor emailed each selected participant 5 days
before the selected random moment, notifying him or her of the requirement to participate in a
survey and of the exact random moment. Each of the selected participants responded to the
survey’s questions about the activity he or she was performing at the random moment. The
Contractor then coded the random moment based on the responses provided.

The Contractor analyzed the results of the RMTS responses for each school district to determine
the direct medical service percentage—that is, the percentage of time that school districts’ staffs
spent on Medicaid-allowable SBHS activities—and then reported that information to the State
agency. For each State fiscal year (SFY), the Contractor applied the direct medical service
percentage to each school district’s annual actual costs associated with the provision of SBHS to
determine the Medicaid direct medical service costs. For SFY 2010, the Contractor calculated
the direct medical service percentage to be 45.47 percent.

In addition to the direct medical service percentage, the calculation to determine the Medicaid
direct medical service costs also applied each school district’s:

    •    IEP Student Utilization Ratio 2 to the personnel costs and other direct medical service
         costs,

    •    Specialized Transportation Ratio 3 to transportation costs (if applicable), and



2
  This ratio compares the number of Medicaid-eligible students with IEPs to the total number of students with IEPs
to estimate the percentage of services provided to Medicaid-eligible students.
3
  When a school district is not able to separate the specialized transportation costs from the general education
transportation costs, the Specialized Transportation Ratio is applied to its transportation costs. The Specialized
Transportation Ratio compares IEP students receiving specialized transportation to the school district’s total student
population receiving transportation. The resulting costs are further discounted to determine the portion of the
specialized transportation costs related to Medicaid-eligible students.



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)                   3
    •   indirect cost rate to the personnel costs, other direct medical service costs, and
        transportation costs.

Cost Settlement 4

The purpose of the RMTS is to identify the portion of the direct service time allowable and
reimbursable under Medicaid so that the State agency can thereby conduct a cost settlement on
an annual basis. After each participating school district reported its annual actual costs
associated with the provision of SBHS to the State agency, the Contractor (in coordination with
the State agency) applied the results of the RMTS to determine the Medicaid-allowable direct
medical service costs for each district. On an annual basis, the State agency then reconciled the
total interim payments for the SFY for the participating school district to the Medicaid direct
medical service costs that had been determined through RMTS. The reconciliation process is
referred to as cost settlement.

When the State agency performs an annual cost settlement, costs are limited to the Medicaid
direct medical service costs determined through RMTS. If the interim payments were greater
than the Medicaid direct medical service costs, the school district paid the State agency the
difference. However, if the interim payments were less than the Medicaid direct medical service
costs, the State agency paid the school district the difference and received reimbursement for the
Federal share of that difference.

HOW WE CONDUCTED THIS REVIEW

We reviewed Medicaid direct medical service costs claimed for SBHS provided during the
period July 1, 2009, through June 30, 2010. For this period, the State agency received
$24,189,464 in Federal reimbursement for expenditures related to Medicaid direct medical
service costs associated with 288 participating school districts.

The State agency received $24,792,498 ($17,270,734 Federal share) for interim payments and an
additional $12,749,319 ($6,918,730 Federal share) as a result of cost settlements. Thus, the State
agency claimed a total of $37,541,817 ($24,189,464 Federal share) for the period July 1, 2009,
through June 30, 2010.

Federal regulations allow State agencies up to 2 years to claim Medicaid expenditures (45 CFR
§ 95.7). Therefore, to ensure completeness of the interim payments for claims with dates of
service in our audit period, we reconciled the CMS-64 reports for the quarter ended
September 2009 through the quarter ended September 2012 (13 quarters in all). 5

4
 This section summarizing the cost settlement process is based on the Implementation Guide and interviews with
State agency officials.
5
  Under the provisions of the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), as
amended by P.L. No. 111-226, States’ Federal medical assistance percentages (FMAPs) were temporarily increased
for the period October 1, 2008, through June 30, 2011. All Federal share amounts given in this report include
reimbursements for the Recovery Act’s temporary increase in FMAP.



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)               4
We reviewed all 2,894 survey responses that were (1) completed by employees of participating
school districts in Kansas and (2) coded by the Contractor as IEP-covered direct medical services
to determine whether the responses were coded appropriately. Because the Contractor
statistically selected the random moments from the statewide pool of calculated moments and
participants, our review of the RMTS affects all school districts.

Also, we selected a random sample of 337 random moments that the Contractor coded as
allowable SBHS activities used in the RMTS; we did this to estimate the number of unsupported
responses provided by participants completing the RMTS surveys. In addition, we reviewed the
cost settlement process at the State agency, including a review of the interim payments to each
school district.

We performed an indepth review of the SBHS expenditures filed on behalf of the Wichita public
school district and the Kansas City, Kansas, public school district. We focused on these two
school districts, with particular attention to that portion of SBHS that dealt with Medicaid direct
medical service costs. We selected these districts on the basis of the amounts that the State
agency claimed on their behalf for SBHS provided during the period July 1, 2009, through
June 30, 2010. Of the $37,541,817 ($24,189,464 Federal share) mentioned above, $7,764,380
($5,184,759 Federal share) was associated with the Wichita public school district, and
$2,253,988 ($1,331,776 Federal share) was associated with the Kansas City, Kansas, public
school district.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, Appendix C contains the
details of our statistical sampling methodology, and Appendix D contains our sample results and
estimates.

                                              FINDINGS

Not all of the Medicaid direct medical service costs that the State agency claimed for SBHS were
reasonable, adequately supported, or otherwise allowable in accordance with Federal and State
requirements. As a result, the State agency received unallowable Federal reimbursement totaling
$10,748,706 for services provided during the period July 1, 2009, through June 30, 2010.
Specifically:

    •   The State agency accounted for only $17,067,870 ($11,891,835 Federal share) of the
        $24,792,498 ($17,270,734 Federal share) in interim payments during final cost
        settlement. Because the State agency excluded $7,724,627 ($5,378,899 Federal share) in
        interim payments at cost settlement, the Medicaid direct medical service costs were
        overstated and therefore not reasonable. As a result of this error, the State agency
        received $5,378,899 in unallowable Federal reimbursement.



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   5
    •   The State agency claimed unallowable costs based on RMTS errors. Specifically, the
        Contractor selected invalid participants, selected random moments on invalid dates, and
        coded some activities inaccurately. As a result of these errors, the State agency received
        $4,715,310 in unallowable Federal reimbursement.

    •   The State agency claimed Medicaid direct medical service costs that were not supported
        by its internal cost reporting system. As a result, the State agency received $643,094 in
        unallowable Federal reimbursement. 6

    •   The State agency claimed unallowable costs because the Kansas City, Kansas, public
        school district overstated employee benefit and supply costs by $94,835. As a result, the
        State agency received $11,403 in unallowable Federal reimbursement.

These errors occurred because the State agency did not have adequate policies and procedures to
monitor the SBHS program and to ensure that it claimed all costs in accordance with applicable
Federal and State requirements. Although the State agency performed either a desk review or an
onsite visit of each school district at least once every 3 years, and although the State agency
reviewed at least 5 percent of the RMTS response codes and communicated any necessary
changes with the Contractor, these procedures were not adequate to ensure that the State agency
claimed costs correctly. As a result, the State agency received a total of $10,748,706 in
unallowable Federal reimbursement. See Appendix E for a summary of our findings.

INTERIM PAYMENTS NOT USED AT COST SETTLEMENT

Kansas Medicaid State Plan Amendment #09-07 states that providers complete annual cost
reports in order to reconcile interim payments to total CMS-approved Medicaid-allowable costs.
(See Appendix F.) During the cost settlement process, the State agency did not include interim
payments for some procedure codes. The State agency also paid some Medicaid claims after the
cost settlement was completed. The State agency did not include all interim payments during
cost settlement and paid some Medicaid claims after cost settlement. The State agency did not
subsequently amend the cost settlement to include the payments made after cost settlement. As a
result of these errors, the Medicaid direct medical service costs claimed were in excess of the
Medicaid direct medical service costs determined through RMTS, and therefore not reasonable,
when submitted for Federal reimbursement.

As a result of these errors, the State agency accounted for only $17,067,870 ($11,891,835
Federal share) of the $24,792,498 ($17,270,734 Federal share) in interim payments during final
cost settlement. Because the State agency excluded $7,724,627 ($5,378,899 Federal share) in
interim payments at cost settlement, the Medicaid direct medical service costs were overstated
and therefore not reasonable. As a result of this error, the State agency received $5,378,899 in
unallowable Federal reimbursement for services provided during the period July 1, 2009, through
June 30, 2010.


6
  As explained above, we expanded our scope for this finding to ensure completeness of the interim payments, in
recognition of the fact that State agencies have up to 2 years to claim Medicaid costs.



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)                6
ERRORS IDENTIFIED WITH RANDOM MOMENT TIMESTUDIES

The State agency received some Federal reimbursement that was unallowable because of errors
in the RMTS: namely, the use of invalid RMTS participants and dates and inaccurate RMTS
activity codes. Specifically, the State agency used RMTS for which the Contractor selected
invalid participants, selected random moments on invalid dates, and coded some activities
inaccurately. As a result of these errors, the State agency received unallowable Federal
reimbursement totaling $4,715,310.

Selection of Invalid Participants for Random Moment Timestudies

According to section 1903(a) of the Act, to be allowable for Federal reimbursement, services
must be listed in the State plan. As of July 1, 2009 (the start of our audit period), attendant care
services were no longer listed as allowable services under Kansas Medicaid State Plan
Amendment #09-07. 7 Of the 9,000 moments randomly selected for the RMTS, the Contractor
selected 2,441 moments associated with providers of attendant care services. As of
November 22, 2010, the State agency was aware that these participants should not have been
included in the RMTS. However, the State agency did not adjust the RMTS. Consequently, the
results of these participants’ 2,441 random moments were invalid.

Selection of Invalid Dates for Random Moment Timestudies

The Implementation Guide, page 24, states that (1) school district calendars will be reviewed
each quarter to identify the dates that the school districts will be in session and for which their
staff members are compensated and that (2) those dates will be included in the random moment
sample. Of the 9,000 moments randomly selected for the RMTS, the Contractor selected 29
random moments for staff at the Wichita public school district on dates for which the schools
were not in session and for which their staff members were not compensated. This error
occurred because the State agency used an incorrect school district calendar as the basis for the
RMTS sample, which allowed the erroneous selection. These random moments should not have
been included in the RMTS; therefore, the results for the random moments were invalid.

Inaccurate Coding of Activities for Random Moment Timestudies

The Implementation Guide, pages 8 through 21, provides specific instructions on the coding of
random moments based on participants’ responses to the survey questions. According to this
guideline, an RMTS code for an IEP-covered direct medical service is appropriately selected
“… when school district staff (employees or contracted staff) provides direct client services as



7
  Before November 22, 2010, the State agency included attendant care services in the State plan and, accordingly,
included the participants in the RMTS. CMS reviewed the State plan and sent a letter to the State agency on
November 22, 2010, stating that attendant care services were only being provided in a school setting and added that
the State agency could not restrict attendant care services to school settings. In response, the State agency decided
not to provide attendant care services in the home or other location and deleted these services from its State plan.
CMS approved the revised State plan on July 13, 2010, with a July 1, 2009, effective date.



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)                      7
covered services …” and “… also includes functions performed pre and post of the actual direct
client services.”

Of the 2,894 random moments coded as IEP-covered direct medical services, the Contractor
coded 27 random moments incorrectly because it did not follow the coding guidelines specified
in the Implementation Guide. The responses to these RMTS surveys did not indicate that the
activities performed qualified as IEP-covered direct medical services; an alternative RMTS code
should have been selected instead. (For example, a moment was coded as an IEP-covered direct
medical service although the respondent stated that he or she was returning to the classroom
following a tornado drill.) We recoded these 27 random moments appropriately.

Effect of Errors With Random Moment Timestudies

Because the State agency used invalid RMTS participants and dates and inaccurate RMTS
activity codes, the direct medical service percentage was overstated. On the basis of our
findings, we determined that the direct medical service percentage should have been
31.19 percent instead of 45.47 percent. As a result of these errors and the resulting decrease in
the direct medical service percentage, the Federal share of Medicaid-allowable costs decreased
from $18,810,565 to $14,095,255. Therefore, the State agency received unallowable Federal
reimbursement totaling $4,715,310 that was associated with errors in the RMTS.

UNSUPPORTED EXPENDITURES CLAIMED

Federal regulations (42 CFR § 433.32) require the State Medicaid agency to “… maintain an
accounting system and supporting fiscal records to ensure that claims for Federal funds are in
accordance with applicable Federal requirements.” In addition, the CMS State Medicaid
Manual, section 2500.2, provides instructions for the preparation of the CMS-64 report and
states (§ 2500.2.A): “Report only expenditures for which all supporting documentation, in
readily reviewable form, has been compiled and which is immediately available when the claim
is filed.”

The State agency claimed Medicaid direct medical service costs on the CMS-64 reports for the
quarters ended September 30, 2009, through September 30, 2012, that were not adequately
supported. The State agency was unable to provide support from its internal cost reporting
system for the expenditures claimed. As a result of this error, the State agency received
$643,094 in unallowable Federal reimbursement for claims paid during the period July 1, 2009,
through September 30, 2012.

ISSUES IDENTIFIED AT KANSAS CITY, KANSAS, PUBLIC SCHOOL DISTRICT

The State plan specifies that allowable direct medical service costs include total compensation,
such as salaries and benefits, and costs directly related to the delivery of medical services such as
supplies and materials. These costs are included in the participating school districts’ annual
actual costs associated with SBHS that are reported to the State agency to be used in the cost
settlements.




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   8
During our review of the costs claimed on the Kansas City, Kansas, public school district’s
annual cost report, we identified $89,841 in overstated employee benefit costs as well as $4,994
in overstated supply costs. Therefore, the total direct medical service costs for the Kansas City,
Kansas, public school district during our audit period were overstated. After applying the
revised direct medical service percentage of 31.19 percent to the corrected total Medicaid direct
service costs, we determined that the State agency received additional unallowable Federal
reimbursement totaling $11,403 for SBHS (employee benefit and supply costs) associated with
this school district.

SCHOOL-BASED HEALTH SERVICES PROGRAM
NOT ADEQUATELY MONITORED

These errors occurred because the State agency did not have adequate policies and procedures to
monitor the SBHS program and to ensure that it claimed all costs in accordance with applicable
Federal and State requirements. Although the State agency performed either a desk review or an
onsite visit of each school district at least once every 3 years, and although the State agency
reviewed at least 5 percent of the RMTS response codes and communicated any necessary
changes with the Contractor, these procedures were not adequate to ensure that the State agency
claimed costs correctly.

As a result, the State agency received a total of $10,748,706 in unallowable Federal
reimbursement. See Appendix E for a summary of our findings.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $10,748,706 to the Federal Government for unallowable SBHS costs and

    •   strengthen policies and procedures to monitor the SBHS program and ensure that
        (1) SBHS costs are accurate and supported and (2) it claims all SBHS costs in accordance
        with applicable Federal and State requirements.

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not directly address our
recommendations. The State agency agreed with our first finding (regarding the interim
payments not used at cost settlement) and provided information as to the causes of these errors as
well as corrective actions that it had implemented. The State agency neither agreed nor
disagreed with our third and fourth findings (regarding the unsupported expenditures claimed
and the issues identified in the Kansas City, Kansas, public school district) but described
corrective actions that it had implemented or planned to implement.

The State agency disagreed with our second finding, which involved $4,715,310 (Federal share)
in costs that we questioned on the basis of RMTS errors. State agency officials said that our
methodology for recoding the random moments in question and our methodology for calculating



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   9
the unallowable Federal reimbursement were not statistically valid. The officials stated that
individuals providing attendance care services were included in the direct medical service cost
pool because the State agency had been in the process of requesting CMS approval to add
attendant care services as a reimbursable service. Specifically, State agency officials said that
they had requested CMS approval for an alternative methodology that included individuals
providing attendant care services in the pool of direct medical service costs qualifying for
Federal reimbursement. The State agency added that “[o]nce the determination was made to no
longer seek reimbursement for attendant care services, the final time study sample for the April –
June 2010 quarter had been selected and the quarterly process had begun.” In addition, State
agency officials said that they did not implement the alternative methodology because CMS
never approved it. Although the State agency disagreed with our proposed recoupment related to
this finding, officials said that they were willing to work with CMS to develop a method to
recalculate the FY 2010 direct reimbursement percentage that would satisfy all parties.

The State agency attributed the selection of invalid dates for the RMTS to human error and
attributed the inaccurate coding of the 27 random moments to insufficient information provided
by the participants. For both of these elements of the RMTS finding, State agency officials
described additional control measures that they had put into place.

The State agency’s comments are included in their entirety as Appendix G.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid.

With respect to our first, third, and fourth findings, the State agency described corrective actions
that, when fully implemented, should address the causes of these findings. In this sense, the
State agency’s comments suggested agreement with our second recommendation. The State
agency did not directly address our recommendations. Even though the State agency agreed with
our finding that it had received $5,378,899 in unallowable Federal reimbursement, it did not
address our recommendation to refund this amount.

Although State agency officials said that they requested CMS’s approval of the alternative
methodology related to our second finding, they were unable to provide documentation that they
had submitted this request to CMS. Furthermore, the officials acknowledged that they did not
receive CMS approval and did not implement the methodology. Although the State agency
decided not to claim reimbursement for costs associated with attendant care services, it did not
take action to adjust its CMS-64 reports for previous quarters to account for those costs that it
had claimed for services not approved for Federal reimbursement.

The methodology through which we evaluated the coding of the RMTS survey responses and
recalculated the claimed costs conforms to our policies and procedures and to methodologies that
we have used in previous reviews (Appendix A). In executing that methodology, we based our
findings on applicable Federal and State requirements (Appendix F). These requirements
include the provisions of the CMS-approved State plan, including Kansas Medicaid State Plan



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   10
Amendment #09-07. We maintain that the State agency received unallowable Federal
reimbursement totaling $4,715,310 because of errors in the RMTS. Specifically, the State
agency did not recalculate the direct medical service percentage to reflect that attendant care
services were no longer allowable services under Kansas Medicaid State Plan Amendment
#09-07.

                                         OTHER MATTERS

STATISTICAL VALIDITY OF RANDOM MOMENT TIMESTUDIES

Acceptable statistical sampling methods involve using a random number generator to produce
(1) a set of random numbers used to select the sample and (2) the “seed number” needed to
recreate the random number selection so that the sample can be independently validated. The
State agency was unable to provide documentation required to recreate the statistical methods
used in selecting the random moments. Therefore, we were not able to verify the statistical
validity of its sample as required by 2 CFR pt. 225, Appendix B, section 8.h.6.a(iii).

TIMELY SUBMISSION OF RESPONSES TO
RANDOM MOMENT TIMESTUDY SURVEYS

The Implementation Guide, page 27, states that participants will submit RMTS survey responses
no more than 5 days after the end of the quarter in which the random moment took place.
Although no participant submitted survey responses more than 5 days after the end of the
quarter, we identified 694 survey responses that had not been submitted within 7 days from the
time of the random moment itself. For example, one participant completed the RMTS survey on
the fifth day after the end of the quarter, which was 74 days after the selected random moment.
A timelag of this nature could result in inaccurate responses. It is unlikely that a participant
could remember what task he or she had performed during a specific moment 74 days after the
fact. A CMS official stated that responses should be completed and returned within 5 to 7
calendar days of the moment, at most, to ensure that no potential bias is introduced, because the
staff person’s memory of the assigned random moment will inevitably fade over time.

UNSUPPORTED RESPONSES TO
RANDOM MOMENT TIMESTUDY SURVEYS

We selected a statistical sample of 337 random moments coded as IEP-covered direct medical
services and requested documentation from the school districts to support the activities
performed. (See Appendix C.) Of the 337 random moments selected, school districts could not
provide support for the responses for 143 moments. On the basis of the documentation received,
the participants’ responses could not be supported 22.61 percent of the time. (See Appendix D.)




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   11
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                            Report               Date
                         Report Title                                       Number              Issued
Review of Missouri Medicaid Payments for the School District             A-07-08-03107          3/10/10
Administrative Claiming Program for Federal Fiscal Years
2004 Through 2006
Review of Kansas Medicaid Payments for the School District               A-07-10-04168         10/06/11
Administrative Claiming Program During the Period
April 1, 2006, Through March 31, 2009
Review of Colorado Direct Medical Service and Specialized                A-07-11-04185          4/3/12
Transportation Costs for the Medicaid School Health Services
Program for State Fiscal Year 2008
Arizona Improperly Claimed Federal Reimbursement for                     A-09-11-02020          1/22/13
Medicaid School-Based Administrative Costs




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)        12
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed Medicaid direct medical service costs claimed for SBHS provided during the
period July 1, 2009, through June 30, 2010. For this period, the State agency received
$24,189,464 in Federal reimbursement for Medicaid direct medical service costs associated with
288 participating school districts in Kansas.

We performed an indepth review of the SBHS expenditures filed on behalf of the Wichita public
school district and the Kansas City, Kansas, public school district. We focused on these two
school districts in this review, with particular attention to that portion of SBHS that dealt with
Medicaid direct medical service costs. We selected these districts on the basis of the amounts
that the State agency claimed on their behalf for SBHS provided during the period July 1, 2009,
through June 30, 2010. Of the $24,189,464 in Federal reimbursement mentioned above,
$5,184,759 was associated with the Wichita public school district and $1,331,776 was associated
with the Kansas City, Kansas, public school district.

We did not perform a review of Medicaid direct medical service costs at the remaining 286
participating school districts in Kansas. However, because the State agency used statewide
RMTS percentages to calculate SBHS costs for all Kansas school districts, any errors in the
statewide RMTS percentages affected the SBHS costs for every participating school district.
Therefore, we applied the revised statewide RMTS percentages to the costs for all 288
participating school districts.

We did not perform a detailed review of the State agency’s internal controls because our
objective did not require us to do so. We limited our internal control review to obtaining an
understanding of the State agency’s policies and procedures to claim SBHS expenditures.

We conducted fieldwork from June 2012 to August 2013 at the State agency in Topeka, Kansas,
and at the Wichita and Kansas City, Kansas, public school districts.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal and State requirements;

    •   reviewed the State agency’s policies and procedures concerning SBHS, which included
        the State agency’s monitoring and oversight procedures;

    •   interviewed State agency employees to understand how they administered the SBHS
        program statewide;

    •   interviewed Contractor employees to understand how they administered the SBHS
        program and how the statewide RMTS percentages were calculated;


Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   13
    •    reconciled the State agency’s CMS-64 reports to supporting documentation to determine
         whether interim costs claimed were adequately supported; 8

    •    reconciled the actual costs reported on the annual cost reports for the Wichita and Kansas
         City, Kansas, public school districts to accounting records;

    •    interviewed Wichita and Kansas City, Kansas, public school district employees to
         understand how they administered the SBHS program;

    •    judgmentally selected 30 healthcare providers each, that were performing direct medical
         services for the Wichita and Kansas City, Kansas, public school districts, and ensured
         that the providers were qualified to provide these services as defined by the State plan;

    •    judgmentally selected 30 direct medical service claims each for the Wichita and Kansas
         City, Kansas, public school districts to determine whether they were properly billed;

    •    reviewed all 2,894 survey responses that were (1) completed by employees of
         participating school districts in Kansas and (2) coded by the Contractor as IEP-covered
         direct medical services, to determine whether the responses were coded appropriately;

    •    reviewed a sample of 337 random moments that the Contractor coded as allowable SBHS
         activities used in the RMTS (we did this to estimate the number of unsupported responses
         provided by participants completing the RMTS surveys);

    •    recalculated the Wichita and Kansas City, Kansas, public school districts’ annual costs,
         using the corrected expenditures and the corrected statewide RMTS percentages, to
         determine the amounts that should have been claimed;

    •    recalculated the other participating Kansas school districts’ annual costs, using the
         audited statewide RMTS percentages, to determine the amounts that should have been
         claimed;

    •    used the State agency’s formulas for calculating actual annual costs and determined the
         financial effect of all errors identified by comparing the original annual costs to the
         recalculated annual costs using audited costs and RMTS responses;

    •    shared the results of this review, including the details of our recommended adjustments,
         with Wichita public school district officials on July 31, 2013, and with Kansas City,
         Kansas, public school district officials on August 6, 2013; and



8
 Federal regulations (45 CFR § 95.7) allow State agencies up to 2 years to claim Medicaid costs. Therefore, to
ensure completeness of the interim payments for claims with dates of service in our audit period, we reconciled the
CMS-64 reports for the quarter ended September 2009 through the quarter ended September 2012 (13 quarters in
all).



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)                14
    •   shared the results of this review, including the details of our recommended adjustments,
        with State agency officials on August 6, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   15
                    APPENDIX C: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of all random moments selected in the RMTS and the participant
responses that the State agency used to determine allowable costs for claiming Federal
reimbursement for SBHS provided during the period July 1, 2009, through June 30, 2010.

SAMPLING FRAME

We obtained spreadsheets for the random moments selected in the State’s RMTS performed for
the quarters ended December 31, 2009, March 31, 2010, and June 30, 2010, and the related
responses. We combined these three spreadsheets to create one list including 9,000 random
moments. We removed all random moments not coded as “4B-IEP-DMS,” leaving 2,894
random moments. 9

SAMPLE UNIT

A sample unit was a selected random moment and the related participant responses to the RMTS
survey.

SAMPLE DESIGN

We used a stratified random sample:

Stratum 1 – Wichita and Kansas City, Kansas, public school districts – 307 random moments
Stratum 2 – All other school districts – 2,587 random moments

SAMPLE SIZE

We selected a sample of 337 random moments:

Stratum 1 – 307 random moments
Stratum 2 – 30 random moments

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the OIG, Office of Audit Services (OAS), statistical
software.




9
    The “4B-IEP-DMS” code denotes direct medical services.



Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   16
METHOD OF SELECTING SAMPLE ITEMS

We reviewed all random moments in stratum 1. We sequentially numbered the random moments
in stratum 2. We generated 30 random numbers and selected the corresponding random
moments in stratum 2.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the total number of unsupported RMTS
responses.




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   17
                   APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                                         Sample Results
                                              Sample               Number of Responses
                Stratum         Frame Size      Size                 Not Supported
                   1                    307          307                           137
                   2                  2,587           30                              6
                 Total                2,894          337                           143

      Estimates of Percent and Total Number of Responses That Were Not Supported
                  (Limits Calculated for a 90-Percent Confidence Interval)
                    Stratum              Percent of           Number of
                                       Responses Not         Responses Not
                                         Supported            Supported
                       1                   44.625                 137
                       2                   20.000                 517
                     Total                 22.612                 654

                                              Percent of               Number of
                                             Responses Not            Responses Not
                                              Supported                Supported
                   Point estimate               22.612                    654
                    Lower limit                 11.754                    340
                    Upper limit                 33.470                    969




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   18
                            APPENDIX E: SUMMARY OF FINDINGS

                                       State-                  OIG-
                                     Determined             Determined
                                     Costs Using            Costs Using
                                      45.47%                 31.19%                 Difference
                                         (A)                    (B)                   (A–B)
                Medicaid-
             allowable costs
            at direct medical
                  service
                percentage              $18,810,565            $14,095,255             $4,715,310
              Less: interim
            costs used at cost
                settlement                11,891,835            17,270,734           (5,378,899) 10
            Additional costs
               paid at cost
                settlement                 6,918,730            (3,175,479)            10,094,209
                                                             Unsupported
                                                            costs claimed                  643,094
                                                             Unallowable
                                                           reimbursement
                                                              related to
                                                             Kansas City
                                                            school district                 11,403
                                                                Total
                                                             unallowable
                                                           reimbursement               10,748,706




10
  The State agency used $17,067,870 (Total Computable) interim costs at cost settlement. We determined that the
interim costs should have been $24,792,498 (Total Computable) at cost settlement. The difference between the
State agency’s Total Computable interim costs used at cost settlement and our calculations of those costs was
$7,724,627.


Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)            19
      APPENDIX F: FEDERAL AND STATE REQUIREMENTS AND GUIDANCE
              RELATED TO SCHOOL-BASED HEALTH SERVICES

FEDERAL REQUIREMENTS

Section 1903(a) of the Act states that Federal reimbursement is available only for expenditures
that constitute payment for part or all of the cost of services furnished as medical assistance
under the State plan.

Federal regulations (2 CFR § 225, Appendix B, section 8.h.6.a(iii)) state that to meet acceptable
statistical sampling standards the results of the sample must be statistically valid and applied to
the period being sampled.

Federal regulations (42 CFR § 433.32(a)) require the Medicaid State agency to “… maintain an
accounting system and supporting fiscal records to ensure that claims for Federal funds are in
accordance with applicable Federal requirements.”

The CMS State Medicaid Manual, section 2500.2, provides instructions for the preparation of the
CMS-64 report and states (§ 2500.2.A): “Report only expenditures for which all supporting
documentation, in readily reviewable form, has been compiled and which is immediately
available when the claim is filed.”

CMS’s Medicaid and School Health: A Technical Assistance Guide, issued in August 1997,
contains specific technical information on the Medicaid requirements that govern State agencies
seeking Federal reimbursement for coverable health services provided in a school-based setting.

STATE REQUIREMENTS

The Kansas Medicaid State Plan Amendment #09-07, effective July 1, 2009, defines SBHS as
services to children listed in each child’s IEP. These services include specialized transportation;
nursing services; physical therapy; counseling services; social work services; psychological
services; and speech, language, and hearing services. As of July 1, 2009 (the start of our audit
period), attendant care services were no longer allowable for reimbursement under the State plan.
This State Plan Amendment also states that providers complete annual cost reports in order to
reconcile interim payments to total CMS-approved Medicaid-allowable costs.

STATE GUIDANCE

The State agency’s Implementation Guide contains the policies and procedures that Kansas
school districts follow to receive Medicaid reimbursement. The Implementation Guide, page 24,
states that school district calendars will be reviewed each quarter to identify the dates that the
school districts will be in session and for which their staff members are compensated and that
those dates will be included in the random moment sample. The Implementation Guide, pages 8
through 21, provides specific instructions on the coding of random moments based on
participants’ responses to the survey questions. According to this guideline, an RMTS code for
an IEP-covered direct medical service is appropriately selected “… when school district staff
(employees or contracted staff) provides direct client services as covered services …” and
“… also includes functions performed pre and post of the actual direct client services.” The
Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   20
Implementation Guide, page 27, states that participants will submit RMTS survey responses no
more than 5 days after the end of the quarter in which the random moment took place.




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)   21
                              APPENDIX G: STATE AGENCY COMMENTS 


                                                                             / ~:t:".~~~~e.~~
                                                                                      .. ... .
                                                                          /~~-.••·.....·:.·.·::.-'!{''
                                                                                            .. \.-...·~
                                                                        ansas 

                                                              Dcpattmcnt of l lcalth
            Landon State OffiCe Building                           and En vironment
            Phone : 785-296-3981                              /) i,·iJ.l tHt Qj I Ic>1clrh   f   ·(Iff   1-in rm t:Y'
            900 SW Jackson Stree~ Room 900-N
            Fax: 785-296--4813
            Topeka , KS 66612
            www.kdheks.gov/hcf/

            Robert Moser, MD, Secretary                                                                                 Sam Brownback, Governor




            May 30,2014



            Patrick 1. Cogley
            Regiona l Inspector General fo r Audit Services
            US Department of Health and Human Services
            Office of Audit Services
            Region VII
            60 1 East 121h Street
            Room0429
            Kansas City, MO 64106

            Report Number: A-07-13-04207

            Dear Mr. Cogley:

            The Kansas Department of Hea lth and Environment, Division of Health Care Finance (KHDEIDHCF)
            appreciates the opportunity to provide thi s response to the April 20 14 draft audit report by the U.S.
            Department of Health and Human Services, Office of the Inspector General (OIG). KDHE would like to
            thank the OIG audit team for its professionalism throughout our review of its initia l findin gs and
            recommendations.

            Based on its findings, tbe OIG recommended tbat: " Tbe State agency accounted for only
            $17,067,870 ($11 ,891,835 Federal sbare) of tbe $24,792,498 ($17,270,734 Federal sbare) in interim
            payments during final cost settlement. Because tbe State agency excluded $7,724,627 ($5,378,899
            Federal sbare) in interim payments at cost settlement, tbe Medicaid direct medical service costs
            were overstated and therefore not reasonable. As a result of this error, tbe State agency received
            $5,378,899 in unallowable Federal reimbursement."

            KDHE agrees with the above findings. KHDE has since put mea sures in place to ensure t hat these
            inaccuracies do not occur in the future . Interim payments were made for attendant care services because
            KHDE was in the process of adding these services for reimbursement under the State Plan Amendment
            that was submitted to the Center for Medicare and Medicaid Services (CMS). These interim payments for
            attendant care were not included in cost settlement. Once the deci sion was made to remove these services
            for reimbursement , system changes needed to be made to remove these services from payment. KDHE
            stopped accepting and paying Medicaid interim claims for attendant care services by schoo l based service
            providers effective 7/ 1/20 10. This ensures that the interim payments used during cost settlement are not
            inflated with unallowable costs and adheres only to allowab le cost categories.




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A -07-13-04207)                                               22
                                                                 2


          In addition, the cost settlement payments now occur 24 months after the cost reporting period. Per state
          policy, LEAs have one year to bill Medicaid services based on the date of service. This intenti onal delay
          ensures that a ll interim payments are received, processed, and paid before the FY interim payment total is
          calculated and compared to the cost settlement amount for each district. This action plan ensures that no
          interim payments will be received after the cost settlement occurs.

          Based on its findings, the OIG recommended that: "The State agency claime d unallowable costs
          based on RMTS errors. Specifically, the Contractor selected invalid participants, selected random
          moments on invalid dates, and coded some activities inaccurately. As a r es ult of these errors, the
          State agency received $4,715,310 in unallowable Federal reimbursement."

          KDHE di sagrees with the above findings. The report suggests that invalid participant random moment
          responses, specifically the attendant care providers, were included in the quarterly time studies from
          October 1, 2009 through June 30, 20 10. During that ti me, attendant care providers were included in the
          direct service cost pool. Attendant care staff were included in the direct service cost pool because, during
          t his time period, KHDE was in the process of seeking approval to add attendant care services as a
          reimbursable service. Once t he determination was made to no longer seek reimbursement for attendant
          care services, the final time study sample for the April - June 20 I 0 quarter had been selected and the
          quarterly process had begun. KHDE removed these staff from the staff pool list prior to the start of the
          October - December 2010 quarter as outlined in the report. The October - December 2010 quarter was
          the next time study quarter in which updates to the staff pool list were made and a time study was
          conducted.

          It is important to note that while attendant care services were no longer included as direct service
          providers, the direct service percentage for the 20 I 1 Fiscal Year, the first full year after the removal of the
          attendant care personal, remained virtually identical to the 2010 Fiscal Year direct service percentage.
          The manner in which the OIG recoded and reclassified the moments was improper and not statistically
          valid. As a requirement for approval of the time study methodo logy, KHDE submitted a backcasting
          methodology to CMS for approval. The backcasting methodology was developed to outline how to
          account for the changes in the methodology from original submission to prior approval, particularly
          around the inclusion of attendant care staff in the direct service cost pool. The submitted backcasting
          methodology outlined a specific methodology that accounts for the changes in the time study cost pools
          that is consistent with methodologies approved in other states. The backcasting methodology proposes to
          utilize the FY 2011 time study results, which did not include attendant care services, to recalculate the FY
          20 I 0 direct service percentage and state cost settlement. KHDE did not implement this methodo logy
          since it had not obtained any feedback from CMS on this proposal. KHDE believes the submitted
          backcasting methodology is a more accurate and statistically valid process to calculate Federal
          reimbursement than the m ethod utilized I recommended in this audit, which is automatically coding the
          time of sampled attendant care staff as non-reimbursable.

           KHDE also believes the methodology utilized by the OIG to obtain the recommended unallowable
           Federal reimbursement is incorrect. First, t he OIG assumes t hat all of these moments are non­
           reimbursable. While attendant care services were not added to the final approved State Plan Amendment,
           th ese staff did deliver IEP direct services at the same rate as the other direct service providers. This is
           evident through a -comparison of direct service percentages across years. In other words, if attendant care
           staff had not been in the sample pool, others would have been selected for those moments and would have
           delivered IEP direct medica l services at the same frequency as those attendant care staff, thus resulting in
           no change in the allowable Federal reimbursement. Second, si mply recoding those moments violates the
           va lidity of t he sample. If the OIG would have removed all attendant care staff moments from the sample
           and recalculated the direct service percentage without those moments, the overall direct service
           re imbursement percentage would have remained virtually the same. While those moments would have




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)                            23
                                                                3


           been removed from the overa ll responses , the results of the annual time study results would have still met
           the requirement of a 95% confidence level with an error rate of +/- 2% since more than 2,401 annual
           moments would have still been utilized to calculate the annual direct service percentage.

           K.HDE disagrees with the findings, but realizes that the change to the reimbursement status of attendant
           care services was done after the time study samples had been generated for FY 20 10. KHDE believes the
           proposed recoupment is inaccurate but is wi lling to work with CMS to develop a method to recalculate
           the FY 20 I 0 direct service reimbursement percentage that will satisfy all parties.

           Regarding the selected random moments on invalid dates, t his was a data entry mistake caused by human
           e rror. Whil e this was an error, the error did not have a material impact on the claim and this error cannot
           be tied to a specific unallowable Federal reimbursement. Certain dates for Wichita public schoo ls were
           selected for random moments even though they were not in session on that date . T hese moments, since
           sc hool was not in sessio n, would be coded as code I I which is not a reimbursable code. To. ensure that
           this calendar error does not occur agai n, additional quality control measures have been put into place.

           The report a lso identified 27 random moments that were coded inaccurately. Additional follow-up
           measures have now been put in place to ensure that enough detai led information is provided by the
           random moment participant prior to coding the random moment. These moments would account for a
           drop in the direct service reimbursement percentage of about 0.03%. This issue would be accounted for in
           the proposed backcasting methodology as well.

           Based on its findings, the OIG recommended that: "The State agency claimed Medicaid direct
           m edical service costs that were not supported by its internal cost reporting system. As a result, the
           State agency received $643,094 in unallowable Federal reimbursement."

           KDHE's fiscal agent's financial sub-system co ntained decreasing Cost Settlement data t hat did not make
           it s way into their MAR expenditure reports located in Content Manager - used to comp lete t he CMS
           64. Therefore, by not including all negative adjustments, [current] expend itures were over-stated o n the
           CMS 64. There was no systematic/code correction needed to be made to the reports as the April 20 12
           report c reation had an error due to an incorrect version of a fi le that got promoted. A pivot chart will be
           used to validate the MARS Quarterly reports which feed into the CMS64. KDHE will work with OIG to
           report this amount correctly on the CMS 64 .

           Based on its findings, the OIG r ecommended that: "The State agency claimed unallowable costs
           because the Kansas City, Kansas, public school district overstated employee b enefit and supply
           costs by $94,835. As a result, the State agency received $11,403 in unallowable Federal
           reimbursement."

            Whi le each district is responsible for their own reported costs, KDHE has implemented various quality
            assurance checks to safeguard against potential errors. The corrective action plan for this finding includes
            enhanced trainings, additional support, and enhanced oversight activity. The enhanced training includes
            in -person trainings at the sta rt of every school year to ensure that new business staff has the proper
            knowledge and information to report tinancials accurately. In addition to the in-person trainings, WebEx
            trainings a re provided along with user g uides, manual s, and access to the PowerPoint presentation. Each
            WebEx is also recorded and posted to the dashboard of the financial website for future reference. These
            trainings address what are the a llowable costs/unallowable costs, how to report them, and reminders about
            maintaining documentation of reported costs.

           Addi tionally, the State vendor conducts more in depth reviews of service util ization.. The schoo l districts
           are now required to include additional support documentation and submi t corrective action plans for




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A -07-13-04207)                         24
                                                              4


          systemic findings. In addition, if it has been determined that a fmding may have also impacted the staff
          who were not included in the sample, the school district is required to make the necessary changes and the
          remaining staff costs is reviewed.

           The enhanced trainings and detailed monitoring reviews described above are part of the corrective action
           plan to decrease the probability that similar errors will occur in the future.

           If you have any questions or comments regarding KDHE's response, please call Jason Osterhaus at (785)
           296-2319 or email at josterhaus(<V.kdheks.gov.


           Sincerely,




           /!:::~rt~ c~
           Deputy Medicaid Director
           KDHE/DHCF

           cc: Kari Bruffett, Director DHCF
              Dr. Susan Mosier, Medicaid Director, DHCF
              Mike Randol, Director of Finance and Informatics, DHCF
              Rowena Regier, Institutional Reimbursement Manager, DHCF




Kansas Improperly Received Medicaid Reimbursement for School-Based Health Services (A-07-13-04207)                     25
